                 U.S. Department of Agriculture

                    Office of Inspector General
                           Great Plains Region




       Audit Report

  Food and Nutrition Service
National School Lunch Program
  Unified School District 480
        Liberal, Kansas




                       Report No. 27010-22-KC
                              September 2004
                       UNITED STATES DEPARTMENT OF AGRICULTURE
                               OFFICE OF INSPECTOR GENERAL - AUDIT
                                         Great Plains Region
                                    8930 Ward Parkway, Suite 3016
                                   Kansas City, Missouri 64114-3302
                                 TEL: 816.926.7667 FAX: 816.926.7676



DATE:         September 30, 2004

REPLY TO
ATTN OF:      27010-22-KC

SUBJECT:      National School Lunch Program – Unified School District 480, Liberal, Kansas

TO:           Darlene Barnes
              Regional Administrator
              Food and Nutrition Service
              1244 Speer Boulevard, Suite 903
              Denver, CO 80204


This report presents the results of the subject audit.           Your written response, dated
September 16, 2004, to the official draft report has been incorporated into the Findings and
Recommendations section of this report, where appropriate. The text of the response is attached
as exhibit D. Your reply expressed agreement with the recommendations; however, we were
unable to reach management decisions on any of them. The Findings and Recommendations
section of the report explains those actions necessary for us to reach management decisions on
Recommendations Nos. 1 through 10. In general, we will need to be advised of the specific
actions completed, or planned, along with acceptable timeframes for completing the proposed
actions. In addition, the claim amounts determined to be improper must be recovered or an
accounts receivable established. We incorporated your suggested wording for footnote 15 into
the report.

In accordance with Departmental Regulation 1720-1, please furnish a reply within 60 days
describing corrective actions taken or planned and the timeframes for accomplishing final action.
Please note that the regulation requires management decisions to be reached on all findings and
recommendations within 6 months from the date of report issuance, and final action should be
completed within 1 year of management decision.

We appreciate the assistance provided to us during our review.

/s/


DENNIS J. GANNON
Regional Inspector General
  for Audit
Executive Summary
Food and Nutrition Service, National School Lunch Program, Unified School District
480, Liberal, Kansas (Audit Report No. 27010-22-KC)

Results in Brief             This report presents the results of our audit of the National School Lunch
                             Program (NSLP) and School Breakfast Program (SBP), as administered by
                             the Unified School District 480, Liberal, Kansas, the local school food
                             authority (SFA). The Kansas State Department of Education served as the
                             State agency, and the U.S. Department of Agriculture’s (USDA) Food and
                             Nutrition Service (FNS) served as the funding agency. For school year
                             2002/2003, the SFA received over $1 million dollars in FNS reimbursement
                             and about $24,000 in State agency reimbursement.

                             We selected this SFA as one of a series of school audits conducted in Kansas.
                             This selection was made judgmentally to address correspondence from
                             individuals living in the school district who expressed concerns and
                             complaints with the operation of the lunch program. This correspondence
                             identified a number of concerns, including possible misuse of Federal funds.

                             The objectives of our review were to evaluate controls over the
                             administration of the lunch and breakfast programs. We evaluated policies
                             and procedures over meal accountability and oversight of program
                             operations. To accomplish this, we evaluated (1) corrective actions to
                             address previous State agency reviews, (2) the accuracy of collections and
                             accounting for reimbursed meals, (3) the accounting and use of program
                             funds relating to the SFA’s procurement of goods and services, and (4) the
                             accounting for the district’s school food service account. We expanded our
                             review to address those complaints concerning Federal requirements. Our
                             review did not substantiate the complaints of misuse of school lunch funds or
                             other concerns that there were major violations of Federal regulations.

                             However, the State agency had consistently found areas within the school
                             food service program that needed improvement. When the State agency
                             identified problem areas and discussed recommended corrective actions with
                             food service personnel, the personnel would concur with the need for
                             corrective actions, but meaningful and adequate corrective actions were
                             generally not taken.1 The State agency, through specified corrective actions,
                             gave the SFA guidance to correct the problems and strengthen weaknesses.
                             However, the SFA did not exercise the necessary management oversight to
                             ensure agency guidance was followed and needed corrective actions were
                             effectively implemented. To illustrate, the State agency specifically

1
  The attitude of the SFA management can be illustrated by a note in the State agency files that the SFA authorized
representative said he usually dealt with individuals who complained about the food service by pulling $1.50 out of his
pocket and challenging the complainer to do better. He made similar comments to the Office of Inspector General (OIG)
representatives.

USDA/OIG-A/27010-22-KC                                                                                         Page i
                              requested the Food Service Director to ensure that food service contract
                              language contained the elements required by the State. However, the
                              Director did not do so. In three reviews, the State agency found counting and
                              claiming problems in that meal counts were inaccurate and meal claims were
                              incorrect and not supported. The State agency continuously worked with the
                              SFA to correctly implement “offer-versus-serve”2 and “NuMenus,” which is
                              the menu system used by the SFA. The SFA continued to have difficulties in
                              those areas. Our review found the SFA improperly implemented the “offer”
                              meal option.

                              The SFA’s ongoing inability to implement corrective actions led to
                              systemwide problems contributing to a school food service program
                              dependent on transfers from the general fund. For example, in prior reviews,
                              the State agency found counting and claiming problems and requested
                              corrective action be taken to correct the problems. Our review found similar
                              errors were still occurring, in that the SFA did not claim any of the meals
                              served on March 3, 2003. This error resulted in an underclaim of about
                              $6,100. Errors in two other months resulted in additional underclaims of
                              about $400. In addition, omissions or inadequate edit checks resulted in
                              questionable claims of about $700.

                              Inadequate controls in accounting procedures resulted in a revenue
                              adjustment of $4,993 in school year 2000/2001 and a similar adjustment of
                              $2,933 in school year 2001/2002. Additionally, for two of the schools
                              observed, the SFA did not correctly implement the meal options full service
                              and “offer-versus-serve.”

                              In a prior review, the State agency also found problems with the procurement
                              process and requested corrective action to correct the problems concerning
                              contract language. We found that weaknesses existed in the SFA’s controls
                              over the procurement process.           For example, the SFA’s planned
                              procurements were not publicly advertised and contracts did not contain
                              termination provisions.

                              The report also contains a general comment that the SFA’s accounting
                              procedures did not include crediting a prorated share of the interest earned
                              from investments.

Recommendations
In Brief                      We recommend that FNS require the State agency to provide the SFA
                              additional oversight and supervision and, if corrective action is not
                              forthcoming, then the State agency should consult with FNS and withhold
                              program payments, if warranted.

2
  A Federal regulation designed to reduce food waste. Schools that select the “offer” option must offer all food items to all
students, and the students choose only those foods which they intend to eat. Schools that select the “serve” option serve the
full portion of all food items to all students, and students may not decline any food item.

USDA/OIG-A/27010-22-KC                                                                                              Page ii
                   We also recommend that FNS require the State agency to direct the SFA to
                   implement various management and internal controls over aspects relating to
                   the accounting system and to provide the SFA with procedures to correct the
                   internal control weaknesses in processing claims for Federal and State
                   reimbursement and in its procurements for the school lunch program.

FNS Response       Although the agency response showed FNS officials concurred with the
                   recommendations, it did not provide sufficient information to reach
                   management decisions on any of the recommendations.               We have
                   incorporated applicable portions of the response, along with our position, in
                   the Findings and Recommendations sections of the report. The FNS response
                   is included in its entirety as exhibit D.

OIG Position       The Findings and Recommendations section of the report explains those
                   actions necessary for us to reach management decisions on
                   Recommendations Nos. 1 through 10. In order to reach management
                   decisions, we will need to be advised of the specific actions completed or
                   planned along with acceptable timeframes for completing the proposed
                   actions.




USDA/OIG-A/27010-22-KC                                                                  Page iii
Abbreviations Used in This Report

Act            Richard B. Russell National School Lunch Act
CFR            Code of Federal Regulations
FNS            Food and Nutrition Service
NSLP           National School Lunch Program
OIG            Office of Inspector General
SBP            School Breakfast Program
SFA            School Food Authority
USDA           U.S. Department of Agriculture




USDA/OIG-A/27010-22-KC                                        Page iv
Table of Contents
Executive Summary ............................................................................................................................ i

Abbreviations Used in This Report ................................................................................................. iv

Background and Objectives .............................................................................................................. 1

Findings and Recommendations....................................................................................................... 3

    Section 1. Pervasive Problems Recurring in the System .......................................................... 3

        Finding 1             Corrective Action Not Implemented .................................................................. 3
                                  Recommendation No. 1............................................................................... 5
                                  Recommendation No. 2............................................................................... 6

    Section 2. Controls Over the NSLP/SBP Meal Counts............................................................. 7

        Finding 2             Reviews Not Actually Performed ...................................................................... 7
                                   Recommendation No. 3............................................................................... 8
        Finding 3             Inadequate Controls in Place for Meal Counting and Meal Claiming ............... 8
                                   Recommendation No. 4............................................................................... 9
                                   Recommendation No. 5............................................................................. 10
        Finding 4             Edit Check Explanations Were Absent or Inadequate ..................................... 10
                                   Recommendation No. 6............................................................................. 12
        Finding 5             Incorrect Implementation of “Offer-versus-Serve”.......................................... 12
                                   Recommendation No. 7............................................................................. 14
                                   Recommendation No. 8............................................................................. 14

    Section 3. Controls Over Procurement of Goods .................................................................... 15

        Finding 6             Inadequate Controls Over Procurement Process and Contract Provisions....... 15
                                  Recommendation No. 9............................................................................. 17

    Section 4. Accounting Procedures and Controls ..................................................................... 19

        Finding 7             Inadequate Controls Resulted in Inaccurate Accounting Transactions............ 19
                                  Recommendation No. 10........................................................................... 20

General Comments .......................................................................................................................... 21

Scope and Methodology................................................................................................................... 22

Exhibit A – Summary of Monetary Results .................................................................................. 24
Exhibit B – SFA Errors in Accumulating Lunch Meal Counts................................................... 25
Exhibit C – Edit Check Errors ....................................................................................................... 26
Exhibit D – FNS Reply to Official Draft........................................................................................ 27

USDA/OIG-A/27010-22-KC                                                                                                                    Page v
Background and Objectives
Background               On June 4, 1946, Congress passed the National School Lunch Act,3 now the
                         Richard B. Russell National School Lunch Act (Act), which authorizes
                         Federal school lunch assistance. The intent of the Act, as amended
                         December 29, 2001, is to safeguard the health and well-being of the Nation’s
                         children by providing them with nutritious foods and to encourage the
                         domestic consumption of nutritious agricultural commodities and other foods.
                         This is accomplished by assisting States, through grants-in-aid and other
                         means, in providing an adequate supply of food and facilities for the
                         establishment, maintenance, operation, and expansion of nonprofit school
                         lunch programs.

                         The Act, as amended, authorizes the payment of general and special
                         assistance funds to States, based upon the number and category of lunches
                         served. Section 4 of the Act authorizes general cash assistance payments for
                         all lunches served to children in accordance with the provisions of the
                         National School Lunch Program (NSLP) and additional special cash
                         assistance for lunches served under the NSLP to children determined eligible
                         for free or reduced-price lunches. The States are reimbursed at various rates
                         per lunch, depending on whether the child was served a free, reduced-price,
                         or full-price (paid) lunch. Eligibility of children for free or reduced-price
                         meals is based upon their family’s household size and income, as listed in the
                         Food and Nutrition Service (FNS) Income Eligibility Guidelines, which are
                         reviewed annually.

                         FNS is the U.S. Department of Agriculture (USDA) agency responsible for
                         administering the NSLP/School Breakfast Program (SBP). FNS has seven
                         regional offices nationwide. The FNS Mountain Plains Regional Office,
                         located in Denver, Colorado, is responsible for monitoring and overseeing
                         operations in Kansas. The Kansas State Department of Education serves as
                         the State agency and is responsible for overseeing program operations within
                         Kansas. The school food authority (SFA), located in Liberal, Kansas, is
                         responsible for operating the NSLP in accordance with regulations. Each
                         State agency is required to enter into a written agreement with FNS to
                         administer the NSLP/SBP, and each State agency enters into agreements with
                         SFAs to oversee day-to-day operations. The SFA administered the
                         NSLP/SBP in 12 schools.

                         The fiscal year 2002 funding for the NSLP was about $6 billion for meal
                         reimbursements of approximately 4.7 billion lunches. The Kansas State
                         agency received approximately $58 million for the NSLP and $14 million for
                         the SBP in Federal reimbursements for fiscal year 2002. For school year

3
    42 U.S. Code 1751.

USDA/OIG-A/27010-22-KC                                                                          Page 1
                   2001/2002, Kansas provided State funds of approximately $2.5 million to
                   SFAs. For school year 2002/2003, the Liberal SFA received over $1 million
                   dollars in FNS reimbursement and about $24,000 in State agency
                   reimbursement.

                   The general NSLP requirements are codified in Title 7, Code of Federal
                   Regulations (CFR) 210. Requirements for determining eligibility for free and
                   reduced-price meals and free milk are codified in 7 CFR 245. In accordance
                   with 7 CFR 250, USDA also provides donated foods to SFAs to assist in
                   operating the nonprofit lunch program. The Kansas State agency provides
                   cash in lieu of actual commodities to each public school participating in the
                   NSLP/SBP. Generally, schools must collect applications on an annual basis
                   from households of enrolled children and make annual determinations of
                   their eligibility for free or reduced-price meals. These schools must also
                   count the number of free, reduced-price, and paid meals served at the point of
                   service on a daily basis.

Objectives         The objectives of our review were to evaluate controls over the
                   administration of the NSLP and SBP. We evaluated policies and procedures
                   over meal accountability and oversight of program operation. To accomplish
                   this, we evaluated (1) previous State agency reviews, (2) the accuracy of
                   collections and accounting for reimbursed meals, (3) the accounting and use
                   of program funds relating to the SFA’s procurement of goods and services,
                   and (4) the accounting for the SFA’s school food service account.




USDA/OIG-A/27010-22-KC                                                                    Page 2
Findings and Recommendations
Section 1. Pervasive Problems Recurring in the System

Finding 1                     Corrective Action Not Implemented

                              The SFA did not implement procedures and controls to correct and prevent
                              the recurrence of the findings cited in previous State agency and Kansas
                              Department of Health and Environment reviews. We attributed the
                              continuing violations to a lack of oversight by the SFA’s management and a
                              lack of commitment by the managers to implement permanent corrective
                              actions. We identified:

                              •   Repeated violations of food temperature procedures, which reduced
                                  assurance that meals served were fully safe;

                              •   Corrective actions recommended by the State agency were not
                                  implemented and additional inaccurate claims for reimbursement were
                                  submitted; and

                              •   Procurement procedures recommended by the State agency to help assure
                                  the SFA purchased materials with program funds efficiently and
                                  economically were not implemented at the time of our review.

                              State agency requirements4 provide that corrections must be made for any
                              discrepancies found by health officials or the State agency.

                              State agency personnel advised that they were aware of fundamental
                              weaknesses in the SFA’s operation of the NSLP. The State agency had
                              received and reviewed complaints similar to the complaints received by our
                              office. The State agency had made numerous reviews and contacts to provide
                              training and correct problems in the operation of the NSLP. In general, State
                              agency employees believed the SFA made superficial corrections, but these
                              actions did not prevent the observed problems from recurring. As a result,
                              the NSLP remains vulnerable to misuse of funds, food safety risks, and a
                              negative public perception.

                              Unsafe Food Handling Practices

                              The SFA did not correct a critical violation identified by the Kansas
                              Department of Health and Environment and continued to serve food that had
                              been sitting out too long and reached an unsafe temperature. As a result,
                              potentially hazardous food could be served.


4
    Kansas Department of Education 2003 Program Agreement for School Nutrition Programs.

USDA/OIG-A/27010-22-KC                                                                              Page 3
                             Kansas Department of Health and Environment regulations5 state that written
                             procedures shall be maintained in the food establishment and made available to
                             the regulatory authority upon request that ensure compliance with
                             3-501.19, Time as a Public Health Control, and 3-501.14, Cooling.

                             State agency requirements6 state corrections must be made for any
                             discrepancies found by health officials or the State agency. Adherence to
                             proper sanitation, health, and food handling standards, in conformance with all
                             applicable State agency guidance and State and local laws, is required.

                             During a previous inspection, dated April 3, 2003, an inspector from the
                             Kansas Department of Health and Environment found that the SFA served
                             food items kept at a temperature of 62.9 degrees. Kansas Department of
                             Health and Environment regulations7 require the food items be kept at a
                             temperature of 41 degrees or less. The inspector issued the SFA corrective
                             action in the form of a risk control plan. On the followup inspection, dated
                             April 17, 2003, which occurred approximately 14 days later, the inspector
                             found the same food temperature violation. (The inspector told us that this is
                             considered a serious violation, which could result in shutting down the
                             operation of the food service.)

                             We observed the SFA serving perishable food items not held on ice. The
                             SFA stated the kitchen did not have ice machines and “Time as a Public
                             Health Control”8 was used to monitor food temperatures (this procedure
                             limits the time that can pass after food is removed from the refrigerator). We
                             asked the SFA for documentation which would show that “Time” was being
                             used as a control. The SFA could not provide us with such documentation.
                             We believe this is indicative that the SFA still was not properly controlling
                             food temperature.

                             Inaccurate Claims for Reimbursement

                             The State agency identified counting and claiming errors during four reviews:
                             (1) Coordinated Review Effort, dated February 4, 2000; (2) Coordinated
                             Review Effort Followup review, dated June 14, 2000; (3) Onsite review,
                             dated December 13, 2000; and (4) School Meal Initiative review, dated
                             February 20, 2002. Based on the findings during our review, the SFA had
                             not corrected the counting and claiming problems identified in the State
                             agency reviews. Therefore, the SFA could not ensure the accuracy of
                             monthly meal counts submitted to the State agency on the monthly Claim for
                             Reimbursement forms.


5
  Kansas Department of Health and Environment, Kansas Food Codes 3-501.19 and 3-501.14.
6
  Kansas Department of Education 2003 Program Agreement for School Nutrition Programs.
7
  Kansas Department of Health and Environment, Kansas Food Code 3-501.14, Cooling.
8
  Kansas Department of Health and Environment, Kansas Food Code 3-501.19, Time as a Public Health Control.

USDA/OIG-A/27010-22-KC                                                                                       Page 4
                   As shown in Finding No. 3, the SFA submitted an inaccurate Claim for
                   Reimbursement to the State agency. SFA personnel told us they did not
                   believe implementing adequate controls to ensure the accuracy of claims was
                   necessary, although, in prior reviews, the State agency identified a lack of
                   controls over meal counts and meal claims. Our current review similarly
                   found that inadequate controls resulted in underclaims totaling $6,542 and
                   overclaims totaling $694.

                   Inadequate Procurement Procedures

                   The SFA’s contract administration system was inadequate to ensure vendors
                   complied with the contract. The SFA trusted vendors to comply with bid
                   pricing provisions and did not review invoices submitted to verify the prices
                   charged. As a result, vendors charged prices in excess of those specified in
                   the contract (see Finding 6).

                   The SFA also did not publicly advertise for bids and did not include a
                   provision for termination in vendor contracts. This occurred because there
                   was inadequate management oversight to ensure the SFA implemented bid
                   and contract provisions, as required in the Kansas State Department of
                   Education Food Service Facts Handbook – Fall 1999. As a result, the SFA
                   could not assure products were purchased at the lowest cost from the
                   lowest-cost vendor.

                   In a State agency onsite review, dated December 12, 2000, the SFA was
                   asked to ensure procurement contracts contained required elements, as
                   outlined in the Kansas State Department of Education Food Service Facts
                   Handbook – Fall 1999. Publicly advertising for bids and a provision for
                   termination were elements required by the handbook. We concluded the SFA
                   had not adequately implemented the State agency’s recommended corrective
                   actions in this area and in other areas, as shown in other sections of the
                   report.

Recommendation No. 1

                   Require the State agency to provide the SFA with intensive oversight and
                   supervision and request the State agency to work with the SFA to implement
                   appropriate management controls regarding procurement, meal counts, and
                   meal claims. Require the State agency to verify that the SFA has correctly
                   implemented effective procedures to correct the cited recurring and pervasive
                   problems. If it is found that the conditions remain uncorrected, pursue with
                   the State agency whether future program payments should be delayed,
                   suspended, or denied, in part or in whole.




USDA/OIG-A/27010-22-KC                                                                   Page 5
                   FNS Response.

                   FNS concurred with Recommendation No. 1 and agreed to instruct the State
                   agency to provide supervision to the SFA to complete the recommended
                   actions and to verify the SFA has actually implemented corrective actions. If
                   the conditions remain uncorrected, FNS will pursue with the State agency
                   whether action should be taken on future program payments.

                   OIG Position.

                   In order to reach management decision, we need to be notified of the
                   proposed dates when the recommended actions to be taken by the SFA will
                   be completed and verified by the State agency including a decision on the
                   need to take action on future program payments. Also, we need to be
                   provided a description of the supervision measures the State agency intends
                   to provide to the SFA.

Recommendation No. 2

                   Require the State agency to instruct the SFA to immediately implement any
                   corrective action necessary to conform to all food temperature requirements,
                   and all other pertinent sanitation and health standards of the Kansas
                   Department of Health and Environment. The State agency should work, with
                   the Kansas Department of Health and Environment as appropriate, to ensure
                   the SFA takes corrective action on all deficiencies and verify that the
                   deficiencies have been corrected. If it is found that the conditions remain
                   uncorrected, pursue with the State agency as necessary whether future
                   program payments should be delayed, suspended, or denied, in part or in
                   whole.

                   FNS Response.

                   FNS concurred with Recommendation No. 2 and agreed to require the State
                   agency to provide oversight to the SFA to complete the recommended
                   actions. The State agency is to verify the deficiencies have been corrected,
                   and if not, to take action on future program payments.

                   OIG Position.

                   In order to reach management decision, we need to be notified of the
                   proposed dates when the recommended actions to be taken by the SFA will
                   be completed and verified. Also, we need to be provided a description of the
                   oversight measures the State agency intends to provide to the SFA.




USDA/OIG-A/27010-22-KC                                                                   Page 6
Section 2. Controls Over the NSLP/SBP Meal Counts

                              The SFA did not perform the required self-evaluations because there was not
                              adequate management oversight to ensure the SFA completed the reviews.
                              As a result, the SFA was not able to identify and correct weaknesses within
                              the school food service program.

                              Weaknesses existed in the SFA’s controls over submitting claims for Federal
                              and State reimbursements. More specifically, our audit identified the SFA
                              did not submit a claim on the Claim for Reimbursement meals served on
                              March 3, 2003. The error resulted in an underclaim of about $6,100.
                              Additional claiming errors in February and April resulted in an underclaim of
                              about $400. In addition, the SFA did not adequately perform edit checks9 to
                              ensure that the number of meals claimed did not exceed the maximum
                              number of allowable meals. Thus, SFA received excess reimbursement of
                              about $700.

                              SFA also incorrectly implemented full service and “offer-versus-serve” meal
                              options that resulted in inconsistent handling of meals counted as
                              reimbursable meals.

Finding 2                     Reviews Not Actually Performed

                              The SFA did not perform onsite reviews. This occurred because there was
                              inadequate oversight by the SFA’s management officials to ensure the
                              responsible official completed the reviews. As a result, the SFA was not able
                              to identify weaknesses within the school food service program and perform
                              corrective action to correct the weaknesses.

                              State agency guidelines10 require onsite reviews must be completed by
                              February 1 each year. Federal internal control standards11 also state
                              management and employees should establish and maintain an environment
                              throughout the organization that sets a positive and supportive attitude toward
                              internal control and conscientious management. One factor is the integrity
                              and ethical values maintained and demonstrated by management and staff.

                              During the course of our review, an SFA food service employee admitted that
                              she provided us documentation showing the SFA had completed onsite
                              review forms, although the reviews had not actually been performed. The
                              employee said onsite review forms were completed in May 2003, which were
                              backdated to January 2003. The employee told us the SFA did not actually
                              complete all the reviews because there was not enough time to complete a
9
  A control designed to ensure that meal counts are not in excess of the number of children currently eligible/approved in
each category.
10
   Kansas State Department of Education Food Service Facts Handbook – Fall 1999.
11
   GAO/AIMD-00-21.3.1.

USDA/OIG-A/27010-22-KC                                                                                            Page 7
                       review for each school. The official stated onsite reviews were performed on
                       at least some schools, but the employee could not remember which schools
                       were reviewed.

Recommendation No. 3

                       Require the State agency to instruct the SFA to provide additional supervision
                       over responsible employees to ensure that the SFA properly and timely submits
                       onsite reviews, as required, and records documentation supporting completion
                       of the onsite reviews. Require the State agency to periodically verify that the
                       SFA has correctly implemented the procedures.

                       FNS Response.

                       FNS concurred with Recommendation No. 3 and agreed to require the State
                       agency to provide oversight to the SFA to complete the recommended actions
                       including verification the SFA has properly implemented the corrective
                       procedures.

                       OIG Position.

                       In order to reach management decision, we need to be notified of the
                       proposed dates when the recommended actions to be taken by the SFA will
                       be completed and verified. Also, we need to be provided a description of the
                       oversight measures the State agency intends to provide to the SFA, including
                       the frequency the State agency intends to perform them.


Finding 3              Inadequate Controls in Place for Meal Counting and Meal
                       Claiming

                       The SFA’s controls were inadequate to ensure the accuracy of monthly meal
                       counts submitted to the State agency on the Claim for Reimbursement forms.
                       Management oversight did not require the SFA to implement adequate meal
                       accountability controls, although, in a prior finding, the State agency
                       identified a lack of controls over meal counts and meal claims. Inadequate
                       controls resulted in errors totaling about $6,542 (see exhibits A and B).

                       Federal regulations12 state the SFA shall establish internal controls which
                       ensure the accuracy of lunch counts, prior to the submission of the monthly
                       Claim for Reimbursement. At a minimum, these internal controls shall
                       include: comparisons of daily free, reduced-price, and paid lunch counts
                       against data which will assist in the identification of lunch counts in excess of
                       the number of free, reduced-price, and paid lunches served each day to

12
     7 CFR 210.8(a).

USDA/OIG-A/27010-22-KC                                                                          Page 8
                             children eligible for such lunches; and a system for following up on those
                             lunch counts which suggest the likelihood of lunch counting problems.

                             Our audit identified the SFA did not claim meals served on March 3, 2003.
                             However, the SFA’s daily record of lunches showed the individual schools
                             had served meals that day. We determined on March 3, 2003, there were
                             2,255 free lunches, 324 reduced-price lunches, and 793 paid lunches the SFA
                             did not claim because of an error during the consolidation process. The
                             SFA’s error resulted in an underclaim of about $6,100 for March. Additional
                             errors identified in the consolidation processes resulted in underclaims of
                             about $100 for February 2003 and $300 for April 2003.13 14

                             We reviewed the daily record of lunches served for each of the 12 schools
                             within the Liberal School District, analyzed the number of meals supported
                             by the sales activity report for each day during the selected months, and
                             compared our totals with the number of meals claimed for reimbursement.
                             We found the reimbursement claims did not always match the sales activity
                             records for the period reviewed. To determine the reason for the differences,
                             we then compared the number of meals documented on each school’s daily
                             record of lunches to the sales activity record. We determined that most of the
                             differences resulted from errors when transferring number of meals from the
                             sales activity report to the daily record of lunches. Because the daily record
                             of lunches was inaccurate, the consolidation of data into Claim for
                             Reimbursement was inaccurate.

Recommendation No. 4

                             Require the State agency to provide direction to the SFA on requirements and
                             actions to be taken to correct the underclaims. Require the State agency to
                             periodically verify that the SFA has correctly implemented the procedures
                             adopted.

                             FNS Response.

                             FNS concurred with Recommendation No. 4 and agreed to require the State
                             agency to provide oversight to the SFA to complete the recommended actions
                             including verification the SFA has properly implemented the corrective
                             procedures.

                             OIG Position.

                             In order to reach management decision, we need to be notified of the
                             proposed dates when the recommended actions to be taken by the SFA will

13
  We also found errors in breakfast claims, but the amounts involved were so small that we considered them immaterial.
14
  We concentrated on meal counts in the months of February, March, and April 2003. Because of the errors we found, we
reviewed for reasonability meal counts for all months in school year 2001/2002 and August 2002 through May 2003.

USDA/OIG-A/27010-22-KC                                                                                        Page 9
                              be completed and verified. We will also need evidence the underclaims have
                              been corrected. Also, we need to be provided a description of the oversight
                              measures the State agency intends to provide to the SFA, including the
                              frequency the State agency intends to perform them.

Recommendation No. 5

                              Request the State agency to require the SFA to implement controls that will
                              ensure that Claim for Reimbursement forms are accurate and ensure meal
                              reports and consolidations are always reviewed for accuracy and reconciled
                              to the data from the automated meal accountability system. Require the State
                              agency to periodically verify that the SFA has correctly implemented the
                              procedures adopted.

                              FNS Response.

                              FNS concurred with Recommendation No. 5 and agreed to require the State
                              agency to provide oversight to the SFA to complete the recommended actions
                              including verification the SFA has properly implemented the corrective
                              procedures.

                              OIG Position.

                              In order to reach management decision, we need to be notified of the
                              proposed dates when the recommended actions to be taken by the SFA will
                              be completed and verified by the State agency. Also, we need to be provided
                              a description of the oversight measures the State agency intends to provide to
                              the SFA, including the frequency the State agency intends to perform them.

Finding 4                     Edit Check Explanations Were Absent or Inadequate

                              Edit checks15 were missing explanations or had inadequate explanations of
                              why meal counts were high or exceeded the attendance factor. An SFA
                              official stated the SFA used a general comment for the edit check control
                              because it was easier and faster than calling each cashier or school secretary
                              and asking for a more specific reason why meal counts were high. Thus, the
                              SFA received excessive reimbursements of $694 (see exhibits A and C).

                              Federal regulations16 state edit checks shall compare each school’s daily
                              counts of free, reduced-price, and paid lunches against the product of the

15
   A control that is designed to ensure that daily meal counts that are in excess of the number of children currently
eligible/approved in each category, adjusted by an attendance factor, are to be considered questionable, and must be
investigated to see if meals have been counted in excess of the number actually served that day. If meal counting errors are
found, they are to be corrected prior to submission of the claim for reimbursement. If no meal count errors are determined,
the reason why the correct meal count exceeded the edit check control figure must be explained.
16
   7 CFR 210.8(a)(3).

USDA/OIG-A/27010-22-KC                                                                                            Page 10
                             number of children in the school currently eligible for free, reduced-price,
                             and paid lunches times an attendance factor.

                             Edit checks are used as a control to identify meal counting problems. An
                             attendance factor is part of the edit check control. The attendance factor is a
                             way of stating the relationship between attendance and enrollment. The
                             factor is computed by dividing the average daily attendance by the
                             enrollment.17

                             When performing an edit check, the edit check maximum for each meal
                             category is compared to the number of meals served. If the number of meals
                             served is greater than the edit check maximum, then the data must be
                             reviewed for errors. If no errors are found, then an explanation for the excess
                             must be documented.

                             For example, if the number of free eligible applications was 200, the
                             attendance factor was .9492, and the number of free lunches served was 192,
                             the edit check maximum is found by multiplying 200 times .9492, which
                             equals 190. In our example, the number of free lunches served exceeded the
                             edit check maximum. The daily sales activity report in our example was
                             reviewed and no error was found. An explanation of the excess was
                             documented as “High count because of popular menu, accountability
                             rechecked, no errors noted.”

                             We reviewed the SFA’s 2001/2002 and 2002/2003 daily records of lunches
                             for all schools to see if there were any days that had obvious errors. We
                             determined that the edit checks were missing explanations or had an
                             inadequate explanation of why meal counts were high or exceeded the
                             attendance factor.       The SFA used a general statement "100%" or
                             "100% attendance" as an explanation of why the number of meals served
                             exceeded the attendance factor. The SFA’s edit check review was too
                             superficial to actually detect errors.

                             The SFA’s inadequate edit check review did not disclose an overclaim of
                             300 meals.      The number of free meals included in the claim for
                             November 18, 2002, was 496, and the edit check comment was
                             “100% participation.” However, the sales activity report showed only
                             196 free meals were served, which resulted in an overclaim of 300 meals.
                             The number of students documented as eligible for free meals was only 212,
                             while the edit check maximum (212 times .9492) was only 202. The error
                             resulted in the SFA receiving excessive reimbursement of about $700.18


17
   The SFA may use the statewide average attendance factor of .9492 or the SFA may determine its own attendance factor.
The Liberal SFA used the .9492 attendance factor.
18
   300 free meals times $2.16 (Federal reimbursement rate) + 300 free meals times .1525 (cash-in-lieu of commodities)
= $694.

USDA/OIG-A/27010-22-KC                                                                                       Page 11
Recommendation No. 6

                             Instruct the State agency to provide the SFA with procedures to correct the
                             cited overclaim. Instruct the State agency to require the SFA to implement
                             controls that will ensure that edit checks are properly performed and always
                             reviewed for accuracy. Require the State agency to periodically verify that
                             the SFA has correctly implemented the procedures.

                             FNS Response.

                             FNS concurred with Recommendation No. 6 and agreed to require the State
                             agency to provide oversight to the SFA to complete the recommended actions
                             including verification the SFA has properly implemented the corrective
                             procedures.

                             OIG Position.

                             In order to reach management decision, we need to be notified of the
                             proposed dates when the recommended actions to be taken by the SFA will
                             be completed and verified. We also need to be provided evidence the
                             improper payments have been corrected. Also, we need to be provided a
                             description of the oversight measures the State agency intends to provide to
                             the SFA, including the frequency the State agency intends to perform them.

Finding 5                    Incorrect Implementation of “Offer-versus-Serve”

                             The SFA incorrectly implemented the “offer” meal option,19 because the SFA
                             did not follow the requirements provided in the Kansas State Department of
                             Education Food Service Facts Handbook – Fall 1999 and did not implement
                             the requirements presented in a training meeting. As a result, students were
                             not given the “offer” option of declining a menu item and meals counted as
                             reimbursable meals were inconsistently handled.

                             State agency guidelines20 require that an “offer” meal consists of a minimum
                             of three menu items of which one item must be an entree and one item must
                             be fluid milk. If only three items are offered, a student can decline a
                             maximum of one item and that item can be milk. If more than three items are
                             offered, a student can decline no more than two items.




19
   A meal that consists of a minimum of three menu items of which one item must be an entrée and one item must be a fluid
milk. If three menu items are offered, a maximum of one item can be declined. If more than three menu items are offered,
a maximum of two items can be declined.
20
   Kansas State Department of Education Food Service Facts Handbook – Fall 1999.

USDA/OIG-A/27010-22-KC                                                                                         Page 12
                             Incorrect Implementation of “Offer” Meal Option

                             With the assistance of a State agency Food Service Consultant, we observed the
                             SFA incorrectly implementing the “offer” meal option at two schools. The
                             State agency’s report showed that:

                                   (1) At one school, a sign was posted above the milk advising students that
                                       they must take milk with their meals. This is indicative of a “serve”
                                       program;

                                   (2) Cashiers were asked about the training they had received (from the
                                       SFA). They attended a meeting at the start of the year. An SFA
                                       official did not have any written documentation of this meeting,
                                       specifically regarding what training on “offer” was provided; and

                                   (3) Production records for these schools were weighted21 as “serve”
                                       programs.

                             The State agency consultant further stated the SFA had a copy of the Kansas
                             State Department of Education Food Service Facts Handbook – Fall 1999,
                             which explained the requirements of “offer” vs. “serve” and the State agency
                             had instructed SFA personnel on how to properly implement these provisions.

                             Inconsistent Application of Full Service or “Offer vs. Serve” Meal Options

                             With the assistance of a State agency Food Service Consultant, we observed
                             six meals that did not meet the full service lunch requirement. Three students
                             did not take milk; and three trays did not contain celery or carrots. (The State
                             agency report identified these meals as nonreimbursable meals.22) In
                             contrast, we observed other meals missing one component of a full service
                             meal, but for these meals the cashier required the students to take the missing
                             component.

                             State agency guidelines23 require schools that select the “serve” option to serve
                             the full portion of all food items to all students, and students may not decline
                             any food item.

                             The State agency’s correspondence to the SFA included corrective action to
                             be taken. We included similar actions below, along with additional
                             corrective actions we believe are necessary.


21
   “Offer” meals require less production hours to prepare, and “serve” meals require more production hours to prepare. In
this instance, the production records were reviewed and were determined indicative of a “serve” program.
22
   FNS personnel advised that if meals had a sufficient number of menu items to qualify as a reimbursable meal under the
“offer vs. serve” option, then FNS would recognize the meals as reimbursable.
23
   Kansas State Department of Education Food Service Facts Handbook – Fall 1999.

USDA/OIG-A/27010-22-KC                                                                                         Page 13
Recommendation No. 7

                   Require the State agency to instruct the SFA to correctly implement either the
                   full service option or “offer-versus-serve.” If the SFA chooses to implement
                   the full service meal option, require the SFA to amend the Program
                   Agreement to reflect the change. Require the State agency to verify that the
                   SFA has correctly implemented the procedures.

                   FNS Response.

                   FNS concurred with Recommendation No. 7 and agreed to require the State
                   agency to provide oversight to the SFA to complete the recommended actions
                   including verification the SFA has properly implemented the corrective
                   procedures.

                   OIG Position.

                   In order to reach management decision, we need to be notified of the
                   proposed dates when the recommended actions to be taken by the SFA will
                   be completed and the actions verified.

Recommendation No. 8

                   Require the State agency to instruct the SFA to provide training to, and
                   monitoring of, all cashiers on how to recognize a reimbursable meal under
                   whichever meal service option the school is following, full service or
                   "offer-versus-serve". Require the State agency to periodically review and
                   verify that the SFA has correctly implemented the procedures.

                   FNS Response.

                   FNS concurred with Recommendation No. 8 and agreed to require the State
                   agency to provide oversight to the SFA to complete the recommended actions
                   including verification the SFA has properly implemented the corrective
                   procedures.

                   OIG Position.

                   In order to reach management decision, we need to be notified of the
                   proposed dates when the recommended actions to be taken by the SFA will
                   be completed and the actions verified. Also, we need to be provided a
                   description of the oversight measures the State agency intends to provide to
                   the SFA, including the frequency the State agency intends to perform them.




USDA/OIG-A/27010-22-KC                                                                  Page 14
Section 3. Controls Over Procurement of Goods

Finding 6                   Inadequate Controls Over Procurement Process and Contract
                            Provisions

                            The SFA did not monitor vendor compliance with contract provisions,
                            document solicitation of bids to help assure adequate competition, include all
                            required terms in contracts, and maintain required documentation. This
                            occurred because there was inadequate management oversight to ensure that
                            procurements complied with applicable regulations and contract terms.
                            Consequentially, some procurements may not have been made at competitive
                            terms, and vendors charged prices in excess of those specified in the contract.
                            For school year 2002/2003, the SFA spent about $1 million in food purchases
                            and about $60,000 in nonfood purchases.

                            Federal regulations24 require that grantees and subgrantees maintain a
                            contract administration system which ensures that contractors perform in
                            accordance with the terms, conditions, and specifications of their contracts or
                            purchase orders. Federal regulations25 require “procurement by sealed bids
                            (formal advertising). Bids are publicly solicited and a firm-fixed-price
                            contract (lump sum or unit price) is awarded to the responsible bidder whose
                            bid, conforming with all the material terms and conditions of the invitation
                            for bids, is the lowest in price.” The State agency requires, “For procurement
                            of services or supplies costing in aggregate in excess of $10,000, competitive
                            sealed bids (formal advertising) are publicly solicited or a Request for
                            Proposal is publicized.”26

                            Invoices Not Reviewed

                            An SFA official advised that the SFA was not reviewing invoices for correct
                            pricing (i.e., the prices per invoices reflected vendor bid prices per the
                            contract). The official provided further information that they trusted the
                            vendors and that there was no monitoring process in place to ensure that
                            vendors adhered to their contract and invoiced the SFA at the bid prices for
                            products delivered. As a result, there was no assurance that invoices paid
                            were correct.

                            We advised SFA officials that we had found some errors in pricing on vendor
                            invoices during our review of the 2000/2001 through 2002/2003 school years.
                            During the course of our audit, an SFA official started to review all invoices
                            for price discrepancies. When the official found a discrepancy, the official
                            notified the vendor and requested a sales credit. An SFA official stated the

24
   7 CFR 3016.36(b)(2).
25
   7 CFR 3016.36(d)(2).
26
   Kansas State Department of Education Food Service Facts Handbook, Chapter 8.

USDA/OIG-A/27010-22-KC                                                                            Page 15
                               SFA received sales credits for identified discrepancies. The total amount of
                               the recoveries was unavailable because the review procedures had just
                               started.

                               Bids Not Publicly Advertised

                               The SFA did not publicly advertise to notify interested vendors of the
                               opportunity to provide bids on planned SFA procurements. This occurred
                               because there was inadequate SFA management oversight to ensure the SFA
                               implemented the State’s requirements that bids be publicly solicited.27 As a
                               result, the SFA could not assure products were purchased from the
                               lowest-cost vendor.

                               An SFA official stated vendors used in the past or vendors the SFA was
                               familiar with received bid requests. The official further stated bid requests
                               were not publicly advertised because the official did not want the
                               administrative burden of working with a large number of vendors, especially
                               unfamiliar vendors.

                               A State agency Food Service Consultant stated the SFA had been informed of
                               the bid requirements outlined in the Kansas State Department of Education
                               Food Service Facts. In a prior State agency onsite review, the SFA was
                               directed to review procurement contracts to ensure the contracts contained
                               the required elements, as outlined in the State’s handbook, but the SFA did
                               not implement corrective action.

                               Contracts Did Not Contain a Termination Provision

                               Vendor contracts, which were in excess of $10,000, did not contain a
                               provision for termination by the grantee. This occurred because there was
                               inadequate management oversight to ensure the SFA implemented the
                               termination provision, as required in the Kansas State Department of
                               Education Food Service Facts Handbook – Fall 1999. As a result, the SFA
                               could not terminate vendor contracts.

                               State agency guidelines28 require contracts in excess of $10,000 must contain
                               provisions for termination by the grantee.

                               We reviewed the SFA’s revised bid request, and we did not find a
                               cancellation clause in the request.

                               The State agency Food Service Consultant stated the Kansas State
                               Department of Education Food Service Facts Handbook – Fall
                               1999 contained the termination provision requirement. In a prior State

27
     Kansas State Department of Education Food Service Facts Handbook – Fall 1999.
28
     Kansas State Department of Education Food Service Facts Handbook – Fall 1999.

USDA/OIG-A/27010-22-KC                                                                              Page 16
                            agency onsite review, the SFA was directed to review procurement contracts
                            to ensure the contracts contained the required elements, as outlined in the
                            Kansas State Department of Education Food Service Facts Handbook – Fall
                            1999. The SFA did not implement corrective action.

                            Documentation Unavailable

                            The SFA could not provide adequate documentation to demonstrate that
                            procurement functions related to bid requests, bids from vendors, vendor
                            quotes, and vendor contracts had been performed in accordance with
                            requirements. An SFA official was aware of the requirement to maintain
                            records, but stated that the filing system used by the SFA was inadequate and
                            complete records could not be located. As a result, the SFA could not
                            provide adequate documentation that would assure products were purchased
                            at the lowest cost from the lowest-cost vendor(s).

                            Federal regulations29 require grantees and subgrantees will maintain records
                            sufficient to detail the significant history of a procurement. These records
                            will include, but are not necessarily limited to, the following: rationale for the
                            method of procurement, selection of contract type, contractor selection or
                            rejection, and the basis for the contract price.

                            We requested to review documentation regarding requesting vendors to
                            provide bids, vendor quotes received, and vendor contracts for school years
                            2000/2001, 2001/2002, and 2002/2003. The SFA was unable to provide us
                            with the complete documentation we requested. An SFA official stated the
                            documentation could not be found because the SFA filing system was
                            inadequate. The SFA filing system was a room full of boxes containing
                            records from past years’ food service operations. The contents of the boxes
                            were not clearly labeled.

                            An SFA official stated the SFA was not aware of the requirement to
                            document vendor quotes. A State agency Food Service Consultant stated the
                            information was given in a training seminar the SFA official had attended.
                            During the course of our audit, the SFA started to document vendor quotes.

Recommendation No. 9

                            Require the State agency to instruct the SFA to develop a contract
                            administration system which would ensure that the SFA (1) verifies that
                            vendors operated in accordance to their contract/agreement, (2) seeks
                            competitive bids for planned procurements and fully documents the bids
                            received, (3) includes a provision for termination in contracts, when required,
                            and (4) maintains records sufficient to detail the significant history of a

29
     7 CFR 3016.36(b)(9).

USDA/OIG-A/27010-22-KC                                                                               Page 17
                   procurement. Require the State agency to periodically monitor and verify
                   that the SFA has correctly implemented the procedures.

                   FNS Response.

                   FNS concurred with Recommendation No. 9 and agreed to require the State
                   agency to provide oversight to the SFA to complete the recommended actions
                   including verification the SFA has properly implemented the corrective
                   procedures.

                   OIG Position.

                   In order to reach management decision, we need to be notified of the
                   proposed dates when the recommended actions to be taken by the SFA will
                   be completed and verified. Also, we need to be provided a description of the
                   oversight measures the State agency intends to provide to the SFA, including
                   the frequency the State agency intends to perform them.




USDA/OIG-A/27010-22-KC                                                                 Page 18
Section 4. Accounting Procedures and Controls

Finding 7                      Inadequate Controls              Resulted        in   Inaccurate   Accounting
                               Transactions

                               The SFA did not accurately complete the monthly financial reports required
                               by the State agency. This occurred because control procedures were not
                               designed properly to ensure a timely and accurate recording of revenue
                               transactions. An SFA official noticed the financial reports did not reconcile
                               and made an adjusting entry without supporting detail (plugged adjustments)
                               in 2 of the 3 school years reviewed. As a result, apparent irreconcilable
                               differences could result in negative perception of the program.

                               Our review of the annual financial status summary report reconciled to the
                               general ledger for 2001/2002 showed that the line items in the Annual
                               Financial Status Summary reports to the State agency were broken out
                               differently than the SFA budget amounts. This difference led individuals
                               living in the school district to question whether school lunch funds were
                               inappropriately used. (We found no evidence to substantiate the complaints
                               of misuse of school lunch funds.)

                               State agency guidelines30 state the SFA should answer the following
                               questions to ensure the district has proper controls and know the strengths
                               and weaknesses of the food service program: Are receipts and expenditure
                               reports, as well as profit and loss statements, prepared monthly? Are
                               monthly expenses and revenues compared with prior month’s and year’s
                               totals? Are frequent audits conducted to ensure the accuracy of reported
                               information (revenue totals reflect cash sales and accurate claims for
                               reimbursement and expenses reflect only allowable costs)?

                               An SFA official stated the Annual Financial Status Summary was completed
                               by totaling all of the monthly financial status summaries and transferring the
                               totals to the annual summary. The official further stated a reconciliation was
                               performed between the Annual Financial Status Summary and the revenue
                               and expense ledgers. However, the official’s corrective actions resulting
                               from the reconciliation negated the effectiveness of this control. If the
                               records did not reconcile, an SFA official made adjustments (usually revenue
                               adjustments) to the Annual Financial Status Summary reports for the amounts
                               of the differences. The official could not explain the specific causes of the
                               errors that created the need for adjustments.

                               For example, in June 2001, a revenue adjustment of $4,993 was made to
                               reconcile differences between the Annual Financial Status Summary and the
                               revenue ledger. In July 2002, a similar revenue adjustment of $2,934 was

30
     Kansas State Department of Education Food Service Facts Handbook – Fall 1999.

USDA/OIG-A/27010-22-KC                                                                                Page 19
                   made to achieve reconciliation. However, there was no documentation
                   showing the reason for the difference or justification for the adjustment
                   made.

                   The SFA realized there was a control weakness in how revenue was recorded
                   and accounted for. For school year 2002/2003, the SFA took action to
                   correct the control weakness by creating two separate miscellaneous income
                   accounts in the revenue ledger, where previously there was only one, and
                   developing a control whereby all revenue posted in the two accounts was also
                   recorded in the food service monthly revenue reports.

                   For school year 2002/2003, we found that the revenue line items on the
                   Annual Financial Status Summary reconciled to the general revenue ledger
                   and school lunch fund. The corrective action taken by the SFA corrected the
                   control weakness we found in school years 2000/2001 and 2001/2002.
                   Because of the potential for other errors in the system, we believe it is
                   important that the SFA continue to complete reconciliations for all accounts,
                   not just revenue, on a monthly basis to timely identify and correct errors.

Recommendation No. 10

                   Require the State agency to instruct the SFA to develop control procedures to
                   review financial status summary reports at the end of each month for
                   accuracy and to immediately correct any errors identified. Require the State
                   agency to verify that the SFA has correctly implemented the procedures.

                   FNS Response.

                   FNS concurred with Recommendation No. 10 and agreed to require the State
                   agency to provide oversight to the SFA to complete the recommended actions
                   including verification the SFA has properly implemented the corrective
                   procedures.

                   OIG Position.

                   In order to reach management decision, we need to be notified of the
                   proposed dates when the recommended actions to be taken by the SFA will
                   be completed and verified. Also, we need to be provided a description of the
                   oversight measures the State agency intends to provide to the SFA, including
                   the frequency the State agency intends to perform them.




USDA/OIG-A/27010-22-KC                                                                  Page 20
General Comments
                             No Procedures to Prorate All Interest Income to the Food Service
                             Fund

                             The SFA did not have policies or accounting procedures in effect to credit the
                             school food service account with its prorated share of interest earned on
                             funds within the school food service account. The SFA was aware of the
                             Federal regulation31 requiring interest to be prorated to the food service fund.
                             We did not attempt to calculate the amount of interest to be prorated by the
                             SFA because the food service account’s average balance was too small to
                             have earned any significant interest. However, we believe that if interest
                             earnings increase, SFA should have procedures in place to ensure earnings
                             from the balance in the school food service account are properly recognized
                             in the SFA’s accounting system.




31
  7 CFR 210.2 definition of revenue shows that a prorated share of interest earned from investments should be credited to
the school food service’s account.

USDA/OIG-A/27010-22-KC                                                                                         Page 21
Scope and Methodology
                   Our review primarily covered NSLP/SBP operations July 1, 2000, to
                   June 30, 2003. However, we reviewed records for other periods, as deemed
                   necessary. We performed audit work at the FNS Regional office in Denver,
                   Colorado, the Kansas State agency in Topeka, Kansas, and the SFA in
                   Liberal, Kansas. The review at the SFA was initiated in September 2003.
                   We selected this SFA as one of a series of school audits conducted in Kansas.
                   Our selection of this SFA also addressed correspondence from individuals
                   living in the school district expressing concerns and complaints with the
                   operation of the NSLP. We conducted interviews of relevant persons to
                   determine the validity of the concerns.

                   In school years 2000/2001, 2001/2002, and 2002/2003, there were seven
                   elementary schools, two intermediate schools, two middle schools, and one
                   high school. We reviewed NSLP/SBP claims of all 12 schools and observed
                   lunchroom operations at 1 intermediate school and 1 middle school. We
                   performed our audit in accordance with Government Auditing Standards.

                   To accomplish our review objectives, we reviewed FNS, State agency, and
                   SFA regulations, policies, procedures, manuals, and instructions governing
                   NSLP/SBP operations. We also reviewed the State agency’s most recent
                   administrative review of the SFA’s NSLP/SBP operations and the SFA’s
                   corrective actions taken in response to the administrative review findings and
                   recommendations. We concentrated on meal counts in the months of
                   February, March, and April 2003. Because of the errors we found, we
                   reviewed for reasonability meal counts for all months in school year
                   2001/2002 and August 2002 through May 2003. The following audit
                   procedures were also performed:

                   •     Interviewed officials from the State agency and SFA in order to obtain an
                         overview of their method of operation for the NSLP/SBP and any special
                         supervision given the SFA;

                   •     Evaluated the SFA’s procedures used to gather and consolidate monthly
                         meal claims and whether reports were verified for accuracy;

                   •     Evaluated edit check controls used to assure the reasonableness of claims
                         for reimbursement when daily meal counts, by category, exceeded
                         average daily attendance;

                   •     Reviewed the SFA’s accounting system, which included a review of
                         program funds and interest on those funds;

                   •     Reviewed the SFA’s procurement procedures; and

USDA/OIG-A/27010-22-KC                                                                    Page 22
                   •     Received assistance from a State agency Food Service Consultant with
                         procurement, meal observations, and State agency reviews.




USDA/OIG-A/27010-22-KC                                                               Page 23
Exhibit A – Summary of Monetary Results
                                                           Exhibit A – Page 1 of 1


  Finding No.                 Description       Amount       Category
                  SFA Underclaimed Lunch
       3          Reimbursements for 3 Months     $6,542         1/
                  SFA Overclaimed Lunch
       4          Reimbursements for 1 Month       $694          2/


1/ Underclaim.
2/ Questioned costs, recovery recommended.




USDA/OIG-A/27010-22-KC                                                     Page 24
Exhibit B – SFA Errors in Accumulating Lunch Meal Counts
                                                                                                Exhibit B – Page 1 of 1

                              Paid        Free   Reduced Total Underclaim
February 2003
Reimbursement Claim         15,828    38,930       6,296
Sales Activity Report       15,812    38,970        6306
Difference                      16        -40        -10
Federal Rate                 $0.22      $2.16      $1.76
Cash-in-Lieu               $0.1525   $0.1525     $0.1525
Total                        $5.96   ($92.50)    ($19.13)        ($111.63)32


                              Paid        Free   Reduced Total Underclaim
March 2003
Reimbursement Claim        10,092      24,571      4,119
Sales Activity Report      10,885      26,826     4,443
Difference                   -793       -2,255     -324
Federal Rate                $0.22        $2.16    $1.76
Cash-in-Lieu              $0.1525     $0.1525 $0.1525
Total                    ($295.39) ($5,214.69) ($619.65)        ($6,129.73)


                              Paid        Free   Reduced Total Underclaim
April 2003
Reimbursement Claim        15,151      37,772      6,338
Sales Activity Report      15,174      37,896      6,341
Difference                    -23        -124         -3
Federal Rate                $0.22       $2.16      $1.76
Cash-in-Lieu              $0.1525     $0.1525    $0.1525
Total                      ($8.57)   ($286.75)    ($5.74)        ($301.06)


TOTAL LUNCH UNDERCLAIMED                                            $6,54233




32
   We did not include in our calculations those overclaim errors that would have resulted in an adjustment of less
than $6.
33
   Rounded.

USDA/OIG-A/27010-22-KC                                                                                      Page 25
Exhibit C – Edit Check Errors
                                                                       Exhibit C – Page 1 of 1

                          Paid      Free   Reduced   Total Overclaim
November 18, 2002
Monthly Consolidated
Meal Claim                 43       496         25
Daily Sales Activity
Report                      43       196        25
Difference                   0       300         0
Federal Rate             $0.22     $2.16     $1.76
Cash-in-Lieu           $0.1525   $0.1525   $0.1525
Total                    $0.00   $693.75     $0.00          $693.75


TOTAL LUNCH OVERCLAIMED                                    $69434




34
     Rounded.

USDA/OIG-A/27010-22-KC                                                             Page 26
Exhibit D – FNS Reply to Official Draft
                                          Exhibit D – Page 1 of 3




USDA/OIG-A/27010-22-KC                                     Page 27
Exhibit D – FNS Reply to Official Draft
                                          Exhibit D – Page 2 of 3




USDA/OIG-A/27010-22-KC                                     Page 28
Exhibit D – FNS Reply to Official Draft
                                               Exhibit D – Page 3 of 3




                                [         ].




USDA/OIG-A/27010-22-KC                                          Page 29
